2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le ga 1 Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com.
Fax: (402) 342-4850

No. 19-577

TAMRA L. LAMPRELL,
Petitioner,
v.
REX E. STUCKEY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the MOTION OF CHILD USA
FOR LEAVE TO FILE A BRIEF AMICUS CURIAE IN SUPPORT OF PETITIONER AND
BRIEF OF CHILD USA AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5273 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 25th day of November, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
‘State of Nebraska . ,
My Commission Expires Nov 24, 2020 *

Notary Public Affiant 38801

 

 
